U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

November 21, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: VF Jeanswear, LP v. EEOC, No. 19-446
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 1,
2019. The government's response is now due, after one extension, on December 4, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 3, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government's response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0446
VF JEANS WEAR LP
EEOC

JAMES M. POWELL
WOMBLE BOND DICKINSON (US) LLP
300 NORTH GREENE STREET
SUITE 1900
GREENSBORO, NC 27401
336-574-8081
JIMMY.POWELL@WBD-US.COM
JOSHUA WOODARD
SNELL & WILMER LLP
400 EAST VAN BUREN
PHOENIX, AZ 85004
602-382-6000
JWOODARD@SWLAW.COM

